HHS/OIG-Audit--"Department of Health and Human Services Hospital Cost Principles for Federally Sponsored Research Activities, (A-01-92-01528)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Department of Health and Human Services Hospital Cost Principles for Federally Sponsored Research Activities," (A-01-92-01528)
May 17, 1993
Complete
Text of Report  is available in PDF format (1.9 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1142.
EXECUTIVE SUMMARY:
This final report points out the need to update Federal guidance on the application of hospital cost principles applied
to research and development activity through grants and contracts. Current guidance was published over 25 years ago when
the research environment and Federal funding rules were less complex. The current rules do not provide clear guidance for
determining what types of costs should be allowed and how costs should be allocated. This results in hospitals making interpretations
which expand the types and amounts of costs which could potentially be included in indirect cost rate proposals. We are
recommending that the Assistant Secretary for Management and Budget act to modernize and strengthen the cost principles
applicable to hospitals.